      Department of Homeland Security


        The State of Colorado’s Management of
         State Homeland Security Program and
         Urban Areas Security Initiative Grants
              Awarded During Fiscal Years
                    2007 through 2009




OIG-12-04                                    November 2011
                                                             Offce of Inspector General

                                                             U.S. Department ofHomeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                         NDV7- 2011
                                          Preface

The Department of   Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Colorado's management of State Homeland Security
Program and Urban Areas Security Initiatives grants. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations and
inspections, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
offce, and have been discussed in draft with those responsible for implementation. We
trust this report wil result in more effective, efficient, and economical operations. We


                                       ~;(~
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 2 


     State Strategic Planning Is Aligned With National Guidance ..................................... 2 


     State Guidance to Subgrantees Needs Improvement ................................................... 3 

     Recommendations ........................................................................................................ 6 

     Management Comments and OIG Analysis ................................................................ 6 


     State and FEMA Monitoring Efforts Need Improvement ........................................... 7 

     Recommendations ...................................................................................................... 10 

     Management Comments and OIG Analysis .............................................................. 10 


     Performance and Preparedness Levels Are Unknown ............................................... 11 

     Recommendations ...................................................................................................... 13 

     Management Comments and OIG Analysis .............................................................. 13 


     Cash Flow Problems Could Impact Program Effectiveness ...................................... 15 

     Recommendations ...................................................................................................... 16 

     Management Comments and OIG Analysis .............................................................. 16 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 18 

     Appendix B:           Management Comments to the Draft Report ..................................... 21 

     Appendix C:           Homeland Security Grant Program Background ............................... 31 

     Appendix D:           Colorado’s Nine All-Hazards Regions .............................................. 32 

     Appendix E:           Major Contributors to this Report ...................................................... 33 

     Appendix F:           Report Distribution ............................................................................ 34 


Abbreviations
     CFR                   Code of Federal Regulations 

     DHS                   Department of Homeland Security 

     OIG                   Office of Inspector General 

     OMB                   Office of Management and Budget 

     FEMA                  Federal Emergency Management Agency

     FY                    fiscal year           

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Public Law 110-53, Implementing Recommendations of the 9/11
                      Commission Act of 2007, requires the Department of Homeland
                      Security (DHS), Office of Inspector General (OIG), to audit
                      individual states’ management of State Homeland Security
                      Program and Urban Areas Security Initiative grants. This report
                      responds to the reporting requirement for the State of Colorado.

                      The objectives of the audit were to determine whether the State of
                      Colorado distributed and spent State Homeland Security Program
                      and Urban Areas Security Initiative grant funds (1) effectively and
                      efficiently and (2) in compliance with applicable federal laws and
                      regulations. We were to also address the extent to which grant funds
                      enhanced the State of Colorado’s ability to prevent, prepare for,
                      protect against, and respond to natural disasters, acts of terrorism,
                      and other man-made disasters. The audit included a review of
                      approximately $52 million in State Homeland Security Program and
                      Urban Areas Security Initiative grants awarded to the State of
                      Colorado during fiscal years 2007 through 2009.

                      Generally, the State of Colorado did an effective job of developing
                      its Homeland Security Strategic Plan, distributing grant funds, and
                      ensuring that all of the available funds were being used. The State
                      of Colorado used reasonable methods to assess threats,
                      vulnerabilities, capabilities, and needs, and allocated funds
                      accordingly. The State of Colorado complied with cash
                      management and status reporting requirements, and generally spent
                      funds in accordance with grant requirements and state-established
                      priorities.

                      However, we identified four areas for improvement: guidance to
                      subgrantees, monitoring of grant activities, performance and
                      preparedness measurement, and responses to subgrantee cash flow
                      problems. Our 10 recommendations call for the Federal
                      Emergency Management Agency to initiate improvements which,
                      if implemented, should help strengthen program management,
                      performance, and oversight. Written comments to the draft report
                      are incorporated as appropriate and included in their entirety in
                      appendix B.

           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 1

Background
                            The Homeland Security Grant Program provides federal funding to
                            help state and local agencies enhance capabilities to prevent,
                            protect against, respond to, and recover from terrorist attacks,
                            major disasters, and other emergencies.

                            The Colorado Department of Local Affairs – Division of
                            Emergency Management administered Colorado’s Homeland
                            Security Grant Program for 2007 and part of 2008. In February
                            2008, the Governor of Colorado created the Governor’s Office of
                            Homeland Security by Executive Order as a stand-alone entity to
                            administer the Homeland Security Grant Program. The office was
                            established and State Administration Agency authority transferred
                            partly in response to an OIG report issued in 20071 that identified
                            an ineffective organizational structure to administer the program.
                            Appendices A and C contain additional information on the
                            purpose, scope, and methodology of this audit and of the
                            Homeland Security Grant Program.

                            The State of Colorado (State) received $59,796,443 in Homeland
                            Security Grant Program funds from fiscal years (FYs) 2007 to
                            2009. This included $51,752,550 in State Homeland Security
                            Program and Urban Areas Security Initiative grants that were
                            subawarded to the State’s nine All-Hazards Regions and one
                            Urban Areas Security Initiative. Appendix D illustrates the State’s
                            All-Hazards Regions.

Results of Audit
          State Strategic Planning Is Aligned With National Guidance
                   The State’s strategic planning process followed the Guidance on Aligning
                   Strategies with the National Preparedness Goal, the National Strategy for
                   Homeland Security, and National Preparedness Guidelines. The State
                   addressed the 15 prescribed national planning scenarios as well as 7 state-
                   identified regional planning scenarios in its strategic plan. It also
                   addressed the 4 mission areas and aligned its planning with the 8 current
                   National Priorities. The State adopted capabilities-based planning
                   processes as established by the National Preparedness Guidelines.

                   In 2007, the State rewrote its Homeland Security State Strategy to align
                   with the National Strategy for Homeland Security and National
1
    Audit of the State of Colorado Homeland Security Grant Program (OIG-08-16), December 2007.

                 The State of Colorado’s Management of State Homeland Security Program and
             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 2

       Preparedness Guidelines. Its current plan is in effect for the period 2008
       through 2013. At the time the plan was prepared, the federal government
       was emphasizing capabilities-based planning that was designed to enable
       states to make informed decisions in determining priorities and to make
       efficient use of resources to address prioritized needs. The State strategy
       incorporated capabilities-based planning to address the wide range of
       threats and hazards realistically faced by the State’s first responders and
       communities. A collaborative effort involving all levels of state and local
       governments outlined the direction for the State’s prevention, protection,
       response, and recovery efforts.

       The State facilitated and reviewed annual assessments at the state agency
       and regional levels to determine local risks, needs, and capabilities.
       According to State officials, as part of a multi-stage process, regional
       boards collected information from constituent jurisdictions to identify the
       greatest threats based on probability and consequence from a combined set
       of the 15 national and 7 state planning scenarios. Through this process,
       the State was able to determine realistic risks, needs, and capabilities at the
       local level.

State Guidance to Subgrantees Needs Improvement
       The State’s guidance to subgrantees did not provide sufficient grant
       administration information or program support, including mentoring,
       training, and regular interaction. We reviewed the State’s written
       guidance, compared it with subgrantee activities, and identified areas for
       improvement in state grant guidance and program support. Documented
       guidance with detailed, functional procedures, as well as consistent
       interactive engagement with all subgrantees, may improve program
       management and performance.

                The State’s Grant Guidance Does Not Provide Subgrantees
                With Adequate Grant Administration Information

                The State’s written guidance did not adequately detail its
                expectations, methodologies, or functional administration
                requirements. The guidance did not sufficiently explain grant
                administration activities and processes unique to the State. With
                the exception of activities such as grant reimbursement requests
                and modification procedures, the guidance largely restated federal
                guidance or referred subgrantees back to original federal
                requirements. As a result, subgrantees did not have meaningful
                instructions to fully implement adequate grant administration
                procedures, including internal control activities.


     The State of Colorado’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 3

               We compared subgrantee activities that we observed during our
               site visits with the State’s grant guidance. We identified two
               particular internal control activities not covered in the State’s
               guidance: policies and procedures, and segregation of duties.
               These two controls were either nonexistent or inadequate at several
               of the subgrantees we visited. The Government Accountability
               Office Standards for Internal Controls in the Federal Government
               states that policies and procedures should be used to ensure
               compliance with federal requirements. The standards also state
               that segregation of duties minimizes the risk of fraud and errors by
               ensuring that no one individual has control over two or more
               phases of a transaction or operation.

               Policies and Procedures

               Well-documented policies and procedures help provide continuity
               and consistency in managing and administering the grant, especially
               when grant administration is a collateral duty. The State’s grant
               guidance did not include requirements for subgrantees to implement
               policies and procedures unique to grant administration.

               Of the 12 subgrantees we visited, 4 did not have documented
               policies and procedures that specifically outlined processes for
               managing and administrating the grant. Without grant-specific
               policies and procedures, grant management and administration
               could be adversely impacted when key grant staff leave or are
               away for an extended period, and subgrantees cannot ensure
               continuity, consistency, or compliance with federal grant
               requirements.

               For example, during our review, we identified seven subgrantees
               that did not have a process to confirm that vendors were in good
               standing prior to contracting with them. Office of Management
               and Budget (OMB) guidance for federal agencies on the
               government-wide debarment and suspension system for
               nonprocurement programs and activities, found at Title 2 of the
               Code of Federal Regulations (CFR) Part 180, as adopted and
               supplemented by DHS in 2 CFR Part 3000, forbids excluded
               persons or entities from participating in federal agencies’
               nonprocurement grants and contracts of assistance, among other
               covered transactions. Federal Acquisition Regulation Subpart 9.4
               also prescribes policies and procedures forbidding contracting or
               subcontracting with debarred or suspended entities. Prior to the
               State’s September 2009 Grant Management Guide, however, the
               State’s grant guidance did not mention that subgrantees must

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 4

               determine whether recipients are excluded or disqualified from
               participating in a transaction prior to awarding a contract.
               Confirming a vendor’s status with the federal government is a
               process that should be documented in subgrantee policies and
               procedures.

               Segregation of Duties

               The State’s guidance did not address requirements to ensure
               segregation of duties, nor did it suggest methods to accomplish it.
               Certain subgrantees did not ensure that grant-related goods and
               services were initiated, approved, and received by different staff
               members. We identified a grant coordinator at the subgrantee level
               who was responsible for multiple tasks in the procurement process.
               As another example, one regional coordinator was responsible for
               initiating purchases, receiving products, and approving transactions
               for payment. State guidance should specifically address
               segregation of duties at the subgrantee level to mitigate the risk of
               fraud and errors.

               The State’s Program Support Needs Improvement

               The State did not provide sufficient program support, such as
               training, mentoring, and proactively engaging subgrantees, as part
               of its day-to-day management oversight. A Federal Emergency
               Management Agency (FEMA) regulation, at 44 CFR Part 13.40(a),
               requires that grantees manage the day-to-day operations of grant
               and subgrant support activities.

               A State official responsible for grant administration said that
               unless subgrantees contact grant managers with problems, the
               assumption is that there are no issues and that subgrantees
               understand grant requirements and administration processes.
               Improved program support, including more active engagement,
               mentoring, and training, would better enable subgrantees to fully
               comply with grant requirements.

               One subgrantee grant coordinator said that the State’s grant
               application process was cumbersome and that he would like to see
               more timely and knowledgeable feedback from the State; one said
               that guidance was not always clear; and another said that guidance
               seems to be continually changing. One subgrantee said that it
               would welcome more interaction and mentoring from the State on
               grant administration activities. Two subgrantee officials expressed
               a desire for more feedback on the quality of grant applications.

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 5

               Regional grant coordinators also expressed a desire for more
               timely and knowledgeable feedback from the State. One
               subgrantee reported little interaction with the State, including not
               receiving invitations to attend workshops or other events. State
               officials indicated that they do not proactively mentor subgrantees
               to improve financial, procurement, or programmatic internal
               controls ensuring compliance with guidance, laws, and regulations.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, direct the Governor’s Office of Homeland Security to:

               Recommendation #1: Revise State guidance to provide grant
               implementation expectations, methods, and administration
               activities that are in line with state and federal requirements.

               Recommendation #2: Improve its program support, including
               continual and proactive mentoring, training, and engagement of
               subgrantee grant administration staff.

      Management Comments and OIG Analysis
               FEMA concurred with recommendations 1 and 2. FEMA
               acknowledged the efforts of the Colorado State Administrative
               Agency to provide grant implementation and administrative
               direction to the local jurisdictions through the State’s 2009 Grant
               Management Guide. FEMA also acknowledged that additional
               guidance for subgrantees is necessary. FEMA stated that within
               90 days of receipt of the final report, the Governor’s Office of
               Homeland Security is required to submit a plan for revising,
               updating, and expanding the State’s grant management guidance.
               In addition, a plan for enhancing the program support, training, and
               engagement services offered to subgrantees within the state will be
               required.

               The Governor’s Office of Homeland Security stated that it has
               already taken steps to improve its guidance by including additional
               details that better define state requirements and expectations.
               Information regarding policies and procedures and segregation of
               duties has been included to better summarize subgrantee
               expectations. In addition, a more aggressive subgrantee training
               curriculum has been adopted and the fiscal year 2011 grant
               guidance and application process were revised to provide clearer
               direction for the subgrantees.

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 6

                The actions proposed by FEMA and the Governor’s Office of
                Homeland Security meet the intent of the recommendations. If
                properly implemented, the actions identified in the responses
                should address the conditions indentified during the audit. These
                recommendations are considered resolved and open, pending final
                implementation of the proposed corrective actions.

State and FEMA Monitoring Efforts Need Improvement
       On-site monitoring of subgrantees by the State was not done in a timely
       manner, and the FEMA monitoring reports did not accurately portray
       subgrantee compliance with grant requirements. In addition, FEMA’s
       monitoring reports did not include opportunities to improve grantee
       administrative and operational efficiencies.

                The State’s Monitoring Efforts

                The State Administrative Agency was not timely in its on-site
                monitoring of subgrantees and performed only limited on-site visits.
                An OIG audit report from December 2007 recommended that the
                State take effective action to improve subgrantee monitoring site
                visits. The State has submitted evidence of conducting recent
                subgrantee monitoring visits and has established a grant monitoring
                schedule; however, few monitoring visits have been completed
                since the December 2007 report was issued. During the past two­
                and-a-half years, the State issued monitoring reports for six of the
                nine All-Hazards regions and four state agencies.

                The Director of the State Administrative Agency is aware of the
                lack of timeliness of on-site monitoring visits, and said the agency
                had difficulty meeting its grant monitoring schedule because of
                staffing shortages. The Director anticipates being on schedule by
                the end of 2011.

                Monitoring assesses the quality of program performance over time
                and ensures that grant activities comply with federal regulations.
                A FEMA regulation, at 44 CFR Part 13.40(a), requires the grantee
                to monitor grant- and subgrant-supported activities to ensure
                compliance with applicable federal requirements and achievement
                of performance goals. Grantee monitoring must include each
                program, function, or activity.

                A proactive approach to on-site monitoring and oversight of
                subgrantees can help identify problems such as misunderstanding

     The State of Colorado’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                        Page 7

               of, or noncompliance with, the terms, conditions, and regulations
               of the grant. Early detection and correction of deficiencies found
               during monitoring visits can reduce the time, effort, and cost of
               corrective actions. For example, we identified the following
               deficiencies during our site visits, some of which were also noted
               in the state monitoring reports that we reviewed:

                        Insufficient or nonexistent policies and procedures (see
                        earlier section, The State’s Grant Guidance Does Not
                        Provide Adequate Grant Administration Information for
                        Subgrantees);
                        Insufficient equipment and inventory management
                        practices; and
                        Lack of oversight over subrecipients by pass-through
                        entities.

               Equipment and Inventory Management

               Inventory management practices at several of the sites we visited
               had some level of weakness that could have affected the accuracy
               and integrity of the inventory purchased with grant funds.
               Although subgrantees generally maintained some type of
               equipment list, many did not do physical inventories every 2 years
               as required, or had other weaknesses. For example, at one
               subgrantee location, equipment purchased with grant funds was not
               properly marked with DHS tags, items were not entered on the
               inventory control sheet, and follow-up was not conducted to
               validate the subrecipients received equipment. Another subgrantee
               had difficulty providing an equipment list that correlated to our FY
               2007–2009 grant review period. At another location, listed
               property was assigned to individuals who did not have custody of
               the property. One subgrantee did not maintain any kind of
               equipment list.

               A FEMA regulation, at 44 CFR Part 13.32(d), requires, among other
               things, the development of a control system to ensure adequate
               safeguards to prevent loss, damage, or theft of equipment. The
               regulation also states that a physical inventory of equipment must be
               taken and reconciled with property records at least once every 2
               years.

               Pass-through Entity Oversight

               One subgrantee we visited did not monitor funds that were passed
               through to subrecipients, as required. A subrecipient is an entity

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 8

               that expends federal awards received from a pass-through entity to
               carry out a federal program. During our fieldwork, a subgrantee
               we reviewed passed grant funds to other jurisdictions and did not
               fulfill obligations to monitor the activities of the subrecipients.

               Office of Management and Budget Circular A-133, Audits of
               States, Local Governments, and Non-Profit Organizations,
               requires pass-through entities to monitor subrecipient activities to
               ensure that federal awards are used for authorized purposes in
               compliance with laws, regulations, provisions of contracts, or grant
               agreements, and that performance goals are achieved.

               The deficiencies noted during our site visits are examples of issues
               that, if not discovered timely through on-site monitoring and
               mitigated through corrective actions, can become larger problems.
               Early identification of issues through on-site monitoring can
               improve compliance with policies and procedures, reduce
               equipment loss or misuse, and preclude potential waste or abuse of
               pass-through funds.

               FEMA’s Monitoring Reports

               We reviewed FEMA monitoring reports to determine how FEMA
               reviews state and subgrantee management of the grant process and
               how improvements related to administrative or operational
               efficiency are communicated.

               FEMA conducted on-site strategic and financial monitoring, as
               well as desk-based reviews. FEMA’s strategic monitoring reports
               described the State’s progress toward achieving target capabilities.
               Financial reports described expenditure status and high-level
               controls. Neither the strategic nor the financial monitoring reports
               we reviewed identified programmatic deficiencies or made
               recommendations to improve the State’s program or operational
               efficiency and effectiveness. Further, FEMA’s monitoring reports
               did not discuss results related to FEMA’s training and exercise
               requirements.

               FEMA’s monitoring reports did not capture areas of deficiency
               that we identified during our review. For example, FEMA’s 2009
               Financial Monitoring Site Report documented acceptable
               compliance results. However, FEMA did not identify the
               following deficiencies:




    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 9

                        Insufficient or nonexistent subgrantee policies and
                        procedures;
                        State and subgrantee failure to conduct the required 2-year
                        physical equipment inventory;
                        Deficient state and subgrantee inventory management
                        systems; and
                        Subgrantee failure to vet vendors against the federal
                        debarred and suspended parties list.

               The Implementing Recommendations of the 9/11 Commission Act
               of 2007 (9/11 Commission Act) mandates the frequency of
               monitoring activities for preparedness grants. The 9/11
               Commission Act requires FEMA to conduct a programmatic
               (strategic) and financial review of all grants awarded to states,
               territories, and urban areas at least once every 2 years. FEMA’s
               monitoring activities were supposed to serve as a method by which
               to assist the grantee with the grant process and provide guidance to
               improve grantee administrative and operational efficiencies.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate:

               Recommendation #3: Direct the State to perform on-site
               monitoring of subgrantees on a more timely and routine basis.

               Recommendation #4: Evaluate and improve FEMA-prepared
               monitoring reports to ensure accurate and thorough assessments of
               grant administration practices, requirements, and efficiency.

      Management Comments and OIG Analysis
               FEMA concurred with recommendation 3. FEMA stated that
               within 90 days of receipt of the final report, the Governor’s Office
               of Homeland Security is required to submit a plan for monitoring
               its subgrantees on a timely and routine basis.

               The Governor’s Office of Homeland Security stated that it has
               performed at least one on-site monitoring visit to each of
               Colorado’s nine all-hazards regions and the Denver Urban Areas
               Security Initiative during the 2009-2010 calendar years and
               identified areas of improvement for each of the subgrantees. The
               office said that it has already developed a monitoring schedule that
               will allow each region to receive at least one on-site financial and

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 10

                            physical monitoring visit per 18 months, together with the
                            quarterly desktop financial monitoring.

                            FEMA concurred with the intent of recommendation 4. FEMA
                            agreed with the recommendation to the extent that the State can
                            and should improve the monitoring practices, processes, and
                            procedures to be more holistic and provide more details to clearly
                            articulate compliance or non-compliance, programmatic
                            efficiencies and effectiveness, and overall program progress
                            towards completion. FEMA stated that since it only monitors the
                            grant recipient, not the state’s subrecipients (except Urban Areas
                            Security Initiatives), this effort must be aligned with the state and
                            its fiduciary and programmatic responsibilities for upholding the
                            terms, conditions, and use of FEMA grant funds. FEMA said that
                            future program evaluations and monitoring, through a monitoring
                            tool that FEMA and the states can use cooperatively, will be
                            instituted in an upcoming software upgrade to a FEMA grants
                            system to be completed within the next year, i.e., before September
                            30, 2012.

                            The actions proposed by FEMA and the actions the Governor’s
                            Office of Homeland Security stated it has already undertaken meet
                            the intent of the recommendations. If properly implemented, the
                            actions identified in the responses should address the conditions
                            indentified during the audit. These recommendations are
                            considered resolved and open, pending final implementation of the
                            proposed corrective actions.

           Performance and Preparedness Levels Are Unknown
                   Neither FEMA nor the State has an adequate performance measurement
                   system to evaluate operational effectiveness and grant funds
                   administration. The tools used to measure program performance and
                   preparedness are either inadequate and unreliable, or not tracked and
                   managed. Therefore, neither the State nor FEMA can determine whether
                   grant funds were used effectively to improve preparedness.

                   The Government Performance and Results Act of 1993, as amended,
                   requires the head of each federal agency to make available an annual
                   performance plan covering each program activity set forth in the budget of
                   such agency.2 Such plan shall include, among other things:




2
    31 U.S.C. 1115(b).

                 The State of Colorado’s Management of State Homeland Security Program and
             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 11

               Establishing performance goals to define the level of performance
               to be achieved by a program activity;
               Expressing such goals in an objective, quantifiable, and
               measurable form; and
               Describing the operational processes; skills and technology; and
               the human capital, information, or other resources required to meet
               the performance goals.

      The Homeland Security Grant Program is a coordinated effort to
      strengthen homeland security preparedness. Without an adequate
      measurement system to collect data on its individual grantees to report on
      program or operational performance, FEMA cannot report on whether the
      program is being run effectively and efficiently.

      FEMA does require Homeland Security Grant Program applicants to tie
      grant proposals to the National Preparedness Guidelines. These proposals
      must outline measurable outcomes that will be tracked and accomplished
      during implementation. Although FEMA requires that grantees report on
      progress made toward achieving the identified outcomes for each
      investment, the State did not track or manage its progress. In addition,
      neither subgrantees nor the State measured the effectiveness of training
      programs or exercises.

      Each of the State’s All-Hazards regions and state agencies is required to
      contribute to a Target Capabilities Assessment. The assessment is a
      performance measurement plan that tracks historical scores and current
      targets. Regions and state agencies align the measurement plan with the
      target capabilities documented in their Homeland Security strategic plans
      and then determine targets (desired levels) for each dimension of
      performance within each target capability.

      The subgrantees’ methods of contributing data to the assessments differed.
      Several subgrantees we interviewed described different approaches to
      implementing their assessment tool, as well as various methods of
      determining gaps between needs and capabilities. Benchmark vs. actual,
      weighting, and brainstorming were among the methods subgrantees used.
      The use of various approaches to develop the capabilities assessment tool
      and the subjective manner in which capabilities are measured would seem
      to limit the usefulness of the assessment.

      In addition to the inconsistent approaches used in preparing the target
      capability assessment, FEMA’s State Preparedness Reports in 2007, 2008,
      and 2009 were inconsistent because they used different formats and
      measures, which made trend analyses relative to specific elements
      virtually impossible.

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 12

               The 2007 State Preparedness Report focused on the State’s
               progress toward achieving eight national priorities, such as
               implementing the National Incident Management System and
               National Response Framework.
               The 2008 report focused on the individual capabilities included
               within each national priority, such as setting capability targets for
               mass prophylaxis plans and coordination.
               The 2009 report focused on metric targets within capability
               measures, such as the time in which immediate dispatch information
               is provided to primary first responders during regular operations.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate:

               Recommendation #5: Work with the National Preparedness
               Directorate to standardize the State’s Preparedness Report format
               to ensure that the State can track and measure its preparedness
               progress and identify work yet to be done to meet goals and
               objectives.

               Recommendation #6: Develop, and incorporate into guidance, a
               comprehensive performance measurement system including
               specific, measurable, and outcome-based program and operational
               performance measures, including training and exercise
               effectiveness, to accurately capture the program’s overall
               performance.

               Recommendation #7: Direct the State to ensure that the Target
               Capability Assessment tool is valid, accurate, complete, and useful.

               Recommendation #8: Direct the State to implement and manage
               specific milestones for achieving progress toward desired Target
               Capability levels and State and subgrantee investment goals.

      Management Comments and OIG Analysis
               FEMA concurred with the intent of recommendations 5 and 6.
               FEMA stated that its National Preparedness Directorate has
               developed an improved and sustainable methodology for assessing
               capabilities that will enable states to track and measure their
               preparedness progress over time using goals and objectives that are
               tied to their specific threats and hazards. This new framework and

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 13

               methodology will be used for the calendar year 2011 data call, with
               results to be included in the 2012 National Preparedness Report.

               FEMA said that the National Preparedness Directorate, the FEMA
               entity responsible for developing guidance regarding the
               Homeland Security Strategy process and preparedness
               performance measurement systems, is revising the guidance for
               Homeland Security Strategy content. It is anticipated that the new
               guidance will be released by the end of 2011.

               FEMA stated that it has also made progress on generating viable
               grant metrics that have been included in the 2011 grant guidance.
               The National Academy of Public Administration will offer three to
               seven effectiveness measures by September 2011. In addition,
               FEMA said it has been developing effectiveness measures for
               grant programs that do not have adequate existing measures.

               FEMA concurred with recommendations 7 and 8. Within 90 days
               of receipt of the final report, FEMA will recommend that the
               Governor’s Office of Homeland Security submit a plan for
               ensuring the accuracy, completeness, and consistency of
               information collected as part of the Target Capability Assessment
               process.

               FEMA anticipates that the National Preparedness Directorate will
               release new guidance by the end of 2011 for the FY 2012
               Homeland Security Grant Program application cycle. The
               Governor’s Office of Homeland Security will therefore be required
               to update the state’s security strategy to comply with the revised
               guidelines.

               The Governor’s Office of Homeland Security concurred with
               recommendations 7 and 8, with comment. While it agreed that the
               Target Capability Assessment tool should be a valid, accurate,
               complete and useful tool, it did not agree with the assertion in the
               report that, “neither the State nor FEMA can determine whether
               grant funds were used effectively to improve preparedness.”
               According to the Governor’s Office of Homeland Security, there
               are a number of systems in place to ensure that grant funds are
               being used effectively and that preparedness is improving.

               The Governor’s Office of Homeland Security noted that Colorado
               has used Homeland Security Grant funds to invest in intelligence
               and information dissemination capabilities which helped lead to
               the arrest of an individual related to terrorism, and to purchase

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                      Page 14

                equipment, training, and exercises that have been utilized by first
                responders to manage many disasters ranging from flooding to
                tornados to wildfires. Despite the challenges to measure
                preparedness, the Governor’s Office of Homeland Security said it
                will continue to work closely with FEMA to assist in developing
                tools to assess and measure preparedness in order to maintain a
                coordinated effort that strengthens homeland security
                preparedness.

                The actions proposed by both FEMA and the Governor’s Office of
                Homeland Security meet the intent of the recommendations. If
                properly implemented, the actions identified in the responses
                should address the conditions indentified during the audit. These
                recommendations are considered resolved and open, pending final
                implementation of the proposed corrective actions.

Cash Flow Problems Could Impact Program Effectiveness
       Local governments face declining revenue and cash flow problems that
       force them to delay acquisition of grant-related equipment due to the lack
       of funds to pay for these purchases in advance of receiving grant
       reimbursement. According to State officials, subgrantees typically submit
       spending plans with grant applications that detail specific purchases and
       expenditures that would be made to address prioritized capability gaps.
       After the subgrantee makes purchases with its own funds, reimbursement
       requests are forwarded to the State and grant funds are subsequently
       disbursed to the subgrantee.

       During our review, we noted two regions that had to delay making
       purchases for up to a year until they could be locally funded, possibly
       increasing the risk that they would not be prepared to respond to an
       emergency. In addition, these regions neighbor each other and represent a
       sizable geographic area in southeastern Colorado that has had to delay
       purchases intended to close capability gaps. Although FEMA guidance
       includes the option to draw down funds 120 days prior to expenses being
       incurred and paid, the State discourages advanced drawdowns and prefers
       to operate the grant programs on a post-pay reimbursement basis.
       Advanced drawdowns may help to ensure that regions with cash flow
       issues can fulfill the intent of the program by making funds available in
       advance to acquire equipment necessary to respond to catastrophic or
       terrorist events.

       Although the State advanced funds to one subgrantee, it did not adequately
       monitor the transaction to ensure that the funds were properly spent. In
       this case, it took the State a year to realize the subgrantee had not spent the

     The State of Colorado’s Management of State Homeland Security Program and
 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                       Page 15

      funds as expected, which resulted in the subgrantee being assessed an
      interest penalty for violating the Cash Management Improvement Act of
      1990, as amended (Cash Management Improvement Act). Rather than
      identify the cause of the monitoring problem and take corrective action,
      State officials opted to reinforce the preference for using the post-pay
      reimbursement process.

      Recommendations
               We recommend that the Assistant Administrator, Grant Programs
               Directorate:

               Recommendation #9: Direct the State to strengthen monitoring
               controls over advanced drawdowns to mitigate the risk of violating
               the Cash Management Improvement Act.

               Recommendation #10: After Recommendation #9 has been
               implemented, direct the State to implement a method to identify
               subgrantees faced with economic challenges and encourage them
               to exercise the option of requesting advanced drawdowns when
               necessary and appropriate.

      Management Comments and OIG Analysis
               FEMA concurred with the intent of recommendations 9 and 10.
               FEMA agreed that the Governor’s Office of Homeland Security
               should enhance the monitoring practices used to provide
               subgrantee oversight, and stated the issues regarding the advance
               drawdown of grant funds will be addressed by the Governor’s
               Office of Homeland Security response to recommendations 1, 2,
               and 3, which is due within 90 days of receipt of the final report.

               The Governor’s Office of Homeland Security stated it has
               implemented more frequent and stringent quarterly financial
               monitoring, which has allowed for a more consistent review of
               subgrantee cash handling practices to ensure compliance with the
               Cash Management Improvement Act. The Governor’s Office of
               Homeland Security said it has also rewritten grant guidance to
               more clearly address the eligibility of cash advances for
               subgrantees, and have reinforced the State’s rules concerning cash
               advance requests benefiting subgrantees faced with economic
               challenges.

               The actions proposed by both FEMA and the Governor’s Office of
               Homeland Security meet the intent of the recommendations. If

    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                      Page 16
               properly implemented, the actions identified in the responses
               should address the conditions indentified during the audit. These
               recommendations are considered resolved and open, pending final
               implementation of the proposed corrective actions.




    The State of Colorado’s Management of State Homeland Security Program and
Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                      Page 17
Appendix A
Purpose, Scope, and Methodology

                       The objective of this audit was to determine whether the State
                       distributed and spent State Homeland Security Program and Urban
                       Areas Security Initiative grant funds strategically, effectively, and
                       in compliance with laws, regulations, and guidance. The goal of
                       this audit is to identify problems and solutions in order to assist
                       FEMA and the State to improve the Nation’s ability to prevent and
                       respond to all hazards on both local and statewide levels.

                       The scope of this audit included the plans developed by the State to
                       improve preparedness and all-hazards response, the goals set
                       within those plans, the measurement of progress toward the goals,
                       and the assessments of performance improvement that result from
                       this activity. Further, the scope included the assessment of these
                       activities within the context of risk to determine if the State’s plans
                       produced strategic performance improvements related to the
                       highest areas of risk rather than merely producing improvements in
                       a broader sense.

                       Together, the entire Homeland Security Grant Program and its five
                       interrelated grant programs fund a range of preparedness activities,
                       including planning, organization, equipment purchase, training,
                       exercises, and management and administration costs. Because of
                       the interrelationship of these grant programs, all were considered
                       when evaluating the planning cycle and the effectiveness of the
                       overall grant program. However, only State Homeland Security
                       Program and Urban Areas Security Initiative funding, and
                       equipment and programs supported by the grant funding, were
                       reviewed for compliance.

                       In accordance with the audit guide, auditors visited the regional
                       coordinators and regional fiscal agents in five of the State’s nine
                       All-Hazards regions and six of the state agencies that have been
                       awarded funding from FYs 2007 to 2009. We also visited three
                       Urban Areas Security Initiative jurisdictions. Auditors selected at
                       least two specific first responder sites in each region to visit and
                       test grant assets. We visited 33 sites, including the State
                       Administrative Agency, 12 subgrantees (Urban Areas Security
                       Initiative Headquarters, five regional offices, and six state agency
                       offices), 19 regional and Urban Areas Security Initiative first
                       responders, and one remote laboratory.




            The State of Colorado’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 18

Appendix A
Purpose, Scope, and Methodology

                       State Administrative Agency

                                State of Colorado Governor’s Office of Homeland Security

                       Regions

                                North Central Region and local first responders
                                Northeast Region and local first responders
                                South Central Region and local first responders
                                South Region and local first responders
                                Southeast Region and local first responders

                       State Agencies

                                Department of Agriculture and laboratory
                                Department of Corrections
                                Department of Local Affairs – Division of Emergency
                                Management
                                Department of Military and Veteran’s Affairs
                                Department of Public Safety

                                University of Colorado – Boulder 


                       Urban Areas Security Initiative

                                Urban Areas Security Initiative Headquarters (Denver)
                                City of Aurora – Stations 9 and 10
                                Cunningham Fire Department
                                South Metro Fire Department (Parker), Stations 33 and 34




            The State of Colorado’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 19

Appendix A
Purpose, Scope, and Methodology

                       The scope of the audit included the following:

                                              Homeland Security Grant Program
                                                  FYs 2007 through 2009
                          Funded Activity         FY 2007      FY 2008       FY 2009            Total
                        State Homeland
                                                 $6,430,000 $11,880,000 $10,925,000 $29,235,000
                        Security Program
                        Urban Areas
                                                 $7,850,000   $7,614,500     $7,053,050 $22,517,550
                        Security Initiative
                                Total           $14,280,000 $19,494,500 $17,978,050 $51,752,550
                        Law Enforcement
                                                                Not           Not
                        Terrorism                $4,600,000                                $4,600,000
                                                              Applicable    Applicable
                        Prevention Program
                        Citizen Corps
                                                   $244,560     $249,368       $248,204         $742,132
                        Program
                        Metropolitan
                        Medical Response           $774,435     $963,663       $963,663    $2,701,761
                        System Program
                            Grand Total         $19,898,995 $20,707,531 $19,189,917 $59,796,443
                       Source: Federal Emergency Management Agency.

                       We reviewed a judgmental sample of the State’s administrative
                       expenditures representing at least 50% of the dollar value expended
                       for all grant years to determine the allowability of the expenditure.
                       We also used an internal control questionnaire and reviewed a
                       judgmental sample of subgrantee expenditures for each applicable
                       grant year. We tested for appropriateness and allowability of
                       expenditures and judgmentally chose specific expenditure assets to
                       observe at the local sites. We developed a tracking tool to document
                       the transactions chosen for review; results of review; tracking status,
                       function, and condition of equipment; and details related to training
                       and exercises to ensure that requirements had been met.

                       We conducted this performance audit between September 2010
                       and March 2011 pursuant to the Inspector General Act of 1978, as
                       amended, and according to generally accepted government
                       auditing standards. Those standards require that we plan and
                       perform the audit to obtain sufficient, appropriate evidence to
                       provide a reasonable basis for our findings and conclusions based
                       upon our audit objectives. We believe that the evidence obtained
                       provides a reasonable basis for our findings and conclusions based
                       upon our audit objectives.



            The State of Colorado’s Management of State Homeland Security Program and
        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                Page 20

Appendix B
Management Comments to the Draft Report



                                                                       U.S. l)t'partmeut of Homcland Se-curity
                                                                                     Washington, DC 20472




                                                                                       FEMA

                                                SEP f 4 1011



         MEMORANDUM FOR:                Anne L. Richards
                                        Assistant Inspector General for Audits
                                        Office of Inspector General


         FROM:                          David J. Kaufman
                                        Director
                                        Office of Policy and Program Analysis


         SUBJECT:                       Comments to OIG Draft Report, The State o/Colorado 's
                                        Management a/State Homeland Security Program and Urban
                                        Areas &curity Initiative Grams AI1'"arded During Fiscal Years
                                       ,200? through 2009


         Thank you for the opportunity to comment on the draft report. The findings in the report will be
         used to strengthen the effectiveness and efficiency of how we execute and measure our
         programs. We recognize the need to continue to improve the process, including addressing the
         recommendations raised in this report. Our responses to the recommendations are as follows:

         Recommendation #1: We recommend that the Assistant Administrator, Grant Programs
         Directorate, dircct the Governor's Office of Homeland Security to revise State guida.n<.~e to
         provide gr<l11t implementation expectations, methods, and administration activities that arc in line
         with state and federal rcquirements.

         FEMAResponse: FEMA concurs with this recommendation.

         In 2009, The Colorado Governor's Office of Homeland Secwily (GOHS) stated that it "works
         with representatives from the State's nine All Hazards Emergency l'vlanagement Regions and
         other partnl;rs to strengthen and streamline the grants administration process," by relc~asing a
         Grant Managcment Guide tor usc by the State. This document incorporate.d "by refercnce the
         provisions ofOl\·1B circulars and government-wide common rules applicable to grants" and was




           The State of Colorado’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 21

Appendix B
Management Comments to the Draft Report




         a significant contribution to the fc>rmal guidance provided by the GOI·IS to its subrecipients.
         FEMA acknowledges the efforts of the Colorado State Administrative Agency (SAA) to provide
         grant implementation and administrative direction to those local jurisc!'ictions receiving
         Homeland Security grant funds.

         However, FEMA concurs with the recommendation that additional guidance for subgrantees is
         necessary. Therefore, within 90 days of receipt of the final report via the grantee noti lication,
         FEMA will require the GOHS to submit a plan lor revising, updating, and expunding the State's
         grant management guidance. FEMA requests that this recommendation be resolved and open
         pending implementation of the stated corrective action.

         Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
         Directorate, direct the Governor's Office of Homeland Security to improve its progrmn support,
         including continual and proactive mentoring, training, and engagement of subgrantee grant
         <ldministration stafr

         FEMA Response: FEMA concurs with this recommendation.

         Within 90 Days of receipt of the tinal report via the grantee notitication, FEI\tl/\. will require the
         GOBS to submit a plan lor enhancing the program support, training, and engagement services
         offered to subgrantees within the State. FEI\tlA requests that this recommendation be resolved
         ~U1d open pending implementation of the stated eOlTcctive <lction.


         Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
         Directorate, direct the State to pertonn on-site monitoring of subgrantees on a more timely and
         routine basis.

         FEMA Response: FEMA concurs with this recommendation.

         Within 90 days of receipt of the final report via the grantee notification, FEMA will require the
         GOBS to submit a pIan tor monitoring its subgrantces on a timely and routine basis. FEMA
         requests that this recommcndation be resolved and open pending implementation of the stated
         corrective action.

         Recommendation #4: We recommend that the Assistant Administrator, Grant Programs
         Directorate, evaluate and improve FEMA-prepared monitoring reports to ensure accurate and
         thorough assessments of grant administmtion practices, requirements, and efticiency.

         FEj"IA. Response: FEMA concurs with the intent of this recommendation.

         FEMA agrees with the recommendation to the extent that the GPD can and should improve the
         monitoring practices, processes and procedures to be more holistic and provide more details to
         clearly articulate compliance/non-compliance, programmatic efficiencies and effectiveness and
         overall program progress towards completion. However, since FEMA. only monitors the grant
         recipient. not the State's subrecipimts, except UASIs, this effort must be aligned with the Stat~~
         and their fiduciary and progrmnrnatic responsibilities for upholding the terms, <xmditions and usc



                                                                                                                  2




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                      Page 22

Appendix B
Management Comments to the Draft Report




         of FEMA grant li.mds. FEMA and GPD reevaluate this process annually and strive to improve
         the mon.itoring process and reporting year over year. Future program evalu.ations and monitoring
         is evolving to a more robust monitOIing tool for States and FEMA to use cooperatively,
         collaboratively and more frequently, whereby increasing constancy of monitoring results and
         accurately documenting project level accomplishments. This will be i.nst.ituted in a coming
         sotlware upgrade currently proposed in the next year (based on available nlllding) through the
         program module of the current ND Grants System. FEII,1..A requests that this recommendation be
         resolved and open pending implementation of the stated corrective action.

         Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
         Directorate, work with the National Preparedness Directorate to standardize the State's
         Preparedness Report format to ensure that the State can track and measure its preparedness
         progress and identiry work yet to be done to meet goals and objectives.

         FEMA Response: FEMA concurs with the intent of this recommendation.

         FEMA agrees with the intent of the recommendation for the National Preparedness Directorate
         (NPD) to standardize the format of the State Preparedness Reports FEMA NPD has developed
         an improved and sustainable methodology for assessing capabilities that will enable states to
         track and measure their preparedness progress over time using goals and objectives that are tied
         to their specitic threats and hazards. This was accomplished in partnership with state and local
         jurisdictions. This new framework ,md methodology will be used tt)r the calendar year 20 II data
         call, with results to be included in the 2012 National Preparedness RepOli.

         FEMA requests that this recommendation be resolved and open pending implementation of the
         stated corrective action.

         Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
         Directorate, develop and incorporate into guidance, a comprehensive performance measurement
         system including speci fic, measurable, and outcome-based program and operational performance
         measures, including training and exercise effectiveness, to accurately capture the program's
         overall perfonnance.

         FEMA Response: FEMA concurs with the intent of this recommendation.

         NPD is the FEMA entity responsible fell' developing guidance reg'lrding the Homeland Security
         Strategy (HSS) process and prepare.dness perfi:mmmce measurem.cnt syst.ems. NPD is revising
         the guidance for HSS content. It is anticipated that, in preparation for the FY 2012 Homeland
         Security Grant Program (HSGP) application cycle, this new guidance will be released by the end
         of the year 20 I!.

         FEMA has also made steady progress on generating viable grant metrics. To date, we have
         developed measures and metrics that have been included in the 2011 grant guidance. The
         National.Academy QfPublic Administration will offer 3-7 effectiveness measures by September
         20 II. Additionally, we have been deVeloping effectiveness measures for any grant programs that
         do not have adequate existing measures.


                                                                                                        3




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 23

Appendix B
Management Comments to the Draft Report




         With its partners/stakeholders, NPD is the FEMA entity responsible tClr developing the National
         Preparedness Goal and de.scription of the National Preparedness System required by the
         Presidell1ial Policy Directive!PPD-8: National Preparedness. The National Preparedness Goal
         \ViII identify the core capabilities and performance objectives for National Preparedness with
         respect to prevention, protection, response, recovery and mitigation. The National Preparedness
         System will provide the description of a methodical approach which li.nks together programs and
         requirements into a comprehensive system, driving rational decision-making and allowing for a
         direct and defensible assessment of progress against clearly detined objectives. 111e system will
         also describe the guidance for resources, equipment, national training ancl exercise programs.
         The National Preparedness Goal is due by September 25, 2011 and the National Preparedness
         System is due by November 24,2011.

         FEMA requests that this recommendation be resolved and open pending implementation of the
         stated corrective action.

         Recommendation #7: We recommend that the Assistant Administrator, Grant Programs
         Directorate, direct the State to ensure that the Target Capability Assessment tool is valid,
         accurate, complete, and useful.

         FEMA Response: FEMA concurs with this reconunendatiOll.

         Within 90 Days of receipt of the final report via the grantee notification, FEMA will recommend
         the GOH.S submit a plan for ensuring the accuracy, completeness, and consistency of
         information collected as part of the Target Capability Assessment process. FEMA requests that
         this recommeildation be resolved and open pending implementation of the stated corrective
         actions.

         Recommendation #8: We recommend that the Assistant Administrator, Grant Programs
         Directorate, direct the State to implement and manage specific milestones for achieving progress
         toward desired Target Capability levels and State and subgrantee investment goals.

         FEMA Response: FEMA concurs with this recommendation.

         All 56 States and Territories have developed a HSS. This docum.cntis the primary mechanism
         tor State and Territorial govemments to identify the homeland security goals t()r their respective
         communities. NPD is the FEMA entity responsible for developing guidance on homeland
         security strategies and preparedness perfomlance measurement system.;;. As stated in response to
         recommendation 6, it is anticipated that NPD will release new guidance by the end of the year
         2011 fill' the FY 2012 HSC;P application cyde. FEMA will require the OOI1S to update the
         State's security strategy in compliance with revised guidelines developed by NPD.

         FEl'vIA believes this satisfi.es the intent of the recommendation and requests that this
         recommendation remai.n resolved and open pending revision of Colorado's HSS.




                                                                                                          4




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 24

Appendix B
Management Comments to the Draft Report




         Recommendation #9: We recommend that the Assistant Administrator, Grant Programs
         Directorate, direct the State to strengthen monitoring controls over advanced drawdowns to
         mitigate the risk of violating the Cash lvf(.l1/agemeni Improvement Act.

         Recommendation #10: \Ve recommend thai the Assistant Administrator, Grant Programs
         Directorate, alter Recommendation:#9 has been implemented, direct the State to implement a
         method to identify sub grantees faced with economic challenges and encourage them to cxerc.ise
         the option of requesting advanccd drawdowns when necessary and appropriate.

         FEMA Response to Recommendations 9 & 10: FEMA concurs with the intent of these
         recolllmendations.

         FEMA concurs with the recommendations that the GOBS should enhance the monitoring
         practices used to providc oversight ti)r subgrantees receiving homeland security grant funds.
         However, it is FEMA's position that the specific issues regarding the advance drawdown of
         grant funds will be addressed by thc GOHS response to recommendations #1 (updated grant
         guidance), #2 (cnhanced program support and training), and #3 (monitoring sub-grantee
         activities).

         Within 90 Days of receipt of the final rcport via the grantee notification, FEMA will require the
         GOHS to submit a plan tor: I) revising, updating, and expanding the State's grant managemcnt
         guidance; 2) enhancing the program support:, training, and engagement services offercd to sub-
         !,'rantces within thc Statc; and 3) monitoring its sub-grantees on a timely and routine basis.

         FEMA requcsts that these recommcndations be resolved and open pending implementation of the
         stated conective action.

         Again, we thank you for the opportunity to review and comment on your draft repol1 which
         contains recommendations aimed at improving the efficiency of our agency. Should you have
         fUI1her questions rcgarding our response, please do not hesitate to call FEMA's Chief Audit
         Liaison, Brad Sheth, at 202-646-1308.




                                                                                                             5




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 25

Appendix B
Management Comments to the Draft Report




                                                          STATE OF COLORADO
        GOVERNOR'S OFFICE OF HOMELAND SECURITY
        9195 East Mineral Avenue, #234
        Centennial, Colomdo 80112
        Phone (720) 852-6602
        Fax (720) 852-6768
        www.colorado.gov/homelandsecurity


                                                                                                 John Hickenlooper
                                                                                                 Governor
         August 17,2011
                                                                                                 Larry D. Trujillo
                                                                                                 Director, Office of
         Ms. Anne L. Richards                                                                    Homeland Security
         Assistant Inspector General for Audits
         Office of Inspector General
         U.S. Department of Homeland Security
         245 Murray Drive, SW, Building 41 0
         Washington, DC 20528

         Re:     Response to OIG DRAFT REPORT: The State of Colorado's Management of State
                 Homeland Security Program and Urban Areas Security Initiative Grants Awarded
                 During Fiscal Years 2007 through 2009" OIG Project No. 10-169-AUD-FEMA

         Dear Ms. Richards:

         The Colorado Governor's Orfice of Homeland Security (GOHS) has received and reviewed the
         above-rererenced draft report. The findings in this report will be used to strengthen the
         effectiveness and efficiency of how our office will execute and measure the homeland security
         program. We recognize the need to continuously improve the process, including addressing the
         recommendations raised in this report.

         Thank you for the opportunity to respond to this report and to work with the Office of the
         Lnspector General during this engagement. We appreciate the report's recognition that the State
         did an effective job of developing its Homeland Secwity Strategic Plan, distributing grant funds,
         and ensuring that all of the available funds were being used. The report also recognizes that the
         State used reasonable methods to assess threats, vulnerabilities, capabilities, and needs, allocated
         funds accordingly, complied with cash management and status reporting requirements, and
         generally spent funds in accordance with grant requirements and state-established priorities.

         Response To Recommendations

         Recommendation #1: Revise State guidance to provide grant implementation expectations,
         methods. and administration activities that are in line with state and federal requirements.

         Response: GOHS concurs with this recommendation and has taken steps to improve its guidance
         by including additional details that better define state requirements and expectations. Although
         State guidance has consistently addressed federal requirements. additional information regarding



                               Colorado ',\' Communities Working Together for a Safer Tomorrow




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                        Page 26

Appendix B
Management Comments to the Draft Report




        policies and procedures and segregation of duties has been included to better summarize sub
        grantee expectations.

        Status: Fully Implemeuted


        Recommendation #2: Improve its program support, including continual and proactive
        mentoring, training, and engagement of sub-grantee grant administration staff.

        Response: GOBS concurs with this recommendation and has taken steps to provide additional
        mentoring and training to sub grantees. Annual trainings and routine site visits had occurred
        during the 2007-2009 fiscal years; however, since 2010 and based. on this recommendation,
        GOHS has now adopted a more aggressive sub grantee training curriculum to address the needs
        of experienced and new fiscal agents, project managers, and coordinators. These trainings are
        now available multiple times a year, and have been customized to address the wide-range of
        experience levels that exists amongst the sub grantees. The fiscal year 2011 grant guidance and
        application process were revised to provide clearer direction and to reduce some of the burden
        placed on the sub grantees. Furthermore, draft grant applications were accepted and reviewed by
        GOHS staff and feedback was provided to sub grantees. GOHS has increased its engagement
        with sub grantees in order to improve overall program support.

        Status: Fully Implemeuted

        Recommendation #3: Direct the State to perform on-site monitoring of sub-grantees on a more
        timely and routine basis.

        Response: GOHS concurs with this recommendation with comments and recognizes the benefits
        of on-site monitoring as the preferred method of monitoring. Although FEMA regulations
        require monitoring to occur, unfortunately they do not specify a specific method or a specific
        frequency at which they must occur. GOHS perfonned at least one on-site monitoring visit to
        each of Colorado's nine all-hazards regions and the Denver UASI during the 2009-2010 calendar
        years and identified areas of improvement for each of the sub grantees. Corrective actions were
        implemented and subsequent grant management trainings highlighted findings that were
        commonly identified during the monitoring visits. GOHS also conducts quarterly monitoring by
        reviewing sub grantee financial and progress reports. Recognizing the need to continuously
        improve, GOHS has developed a monitoring schedule that will allow each region to receive at
        least one on-site financial and physical monitoring visit per 18 months, together with the
        quarterly desktop financial monitoring. This monitoring schedule also allows for additional site
        visits be perfonned if deemed necessary. Given the recent significant Congressional cuts to the
        Homeland Security Grant Program, we recognize that this is aggressive monitoring schedule
        may require revisions in subsequent fiscal years.

        Status: Fully lmplementcd




                                                                                           Page 2 of5




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 27

Appendix B
Management Comments to the Draft Report




        Recommendation #4: Evaluate and improve FEMA-prepared monitoring reports to ensure
        accurate and thorough assessments of grant administration practices, requirements, and
        efficiency.

        Response: This recommendation is directed at FEMA, and therefore, Colorado will defer to
        FEMA for a response to this recommendation.

        Status: Awaiting FEMA Guidance


        Recommendation #5: Work with the National Preparedness Directorate to standardize the
        State's Preparedness Report format to ensure that the State can track and measure its
        preparedness progress and identify work yet to be done to meet goals and objectives.

        Response: GOHS concurs with this recommendation, and Colorado will continue to work with
        the National Preparedness Directorate to develop standardized reporting tools to help measure
        preparedness progress understanding that the development and standardization of these tools is
        ultimately up to FEMA to publish.

        Status: Awaiting FEMA Guidance

        Recommendation #6: Develop, and incorporate into guidance, a comprehensive performance
        measurement system including specific, measurable, and outcome-based program and
        operational perfonnance measures, including training and exercise effectiveness, to accurately
        capture the program's overall performance.

        Response: This recommendation is directed at FEMA, and therefore, Colorado will defer to
        FEMA for a response to this recommendation.

        Status: Awaiting FEMA Guidance


        Recommendation #7: Direct the State to ensure that the Target Capability Assessment tool is
        valid, accurate. complete, and useful.

        Response: GOHS concurs, but with comments on this recommendation. GOHS agrees that the
        Target Capability Assessment tool should be a valid, accurate. complete and useful tool;
        however, GOHS does not agree with the assertion in the report that "neither the State nor FEMA
        can detennine whether grant funds were used effectively to improve preparedness." Although
        numerical measurement of improvements in preparedness is something that all levels of
        government across the entire nation are struggling to capture, there are a number of systems in
        place to ensure that grant funds are being used effectively and that preparedness is improving.

        The State of Colorado's Target Capability Assessment tool has been used on an annual basis
        since 2006 to ensure that grant funds are being used effectively by better understanding the
        capability strengths, weaknesses and needs of our local and State stakeholders. As part of a



                                                                                            Page 3 of5




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 28

Appendix B
Management Comments to the Draft Report




        multi-stage process, all-hazards regions identify their greatest threats and hazards, based upon
        the probability (likelihood of occurrence in that region) and the consequence (estimate of losses
        expected) from a set of both national and state planning scenarios. The determination of the
        priority regional threats directs the focus of enhancement of target capabilities primarily Jjnked
        to mitigating those threats. These assessments have given the all-hazards regions a measure of
        their current level of capability and the ability to project where that capability needs to be in
        order to achieve a pre-determined level of preparedness based upon the level of risk that they are
        willing to accept. These tools provide a baseline upon which Regional Homeland Security
        Strategies are developed and used as a mechanism by which regions can prioritize their most
        pressing needs and map out a plan for addressing those needs. The Regional Homeland Security
        Strategies are a key component used to justify requests through regional applications for
        homeland security grant funding. Projects must tie directly back to the goals and objectives
        indicated in the strategies, providing a simple check that funding requests are contributing to
        accomplishing the long-range goals established by regional subject matter experts.

        Improvements in preparedness have been demonstrated both locally and nationwide through a
        number of real-world events. Homeland Security Grant funds have been utilized in Colorado to
        invest in intelligence and information dissemination capabilities to support the Colorado
        Information Analysis Center which, in conjunction with the FBI Denver Office, arrested
        Najibullah Zazi on charges oflying in a matter involving terrorism. Homeland Security Grant
        funds have also been used to purchase equipment, trainings and exercises that have been utilized
        by first responders to manage many disasters ranging from flooding to tornados to wildfires
        saving countless l.ives and property.

        Despite the challenges at all levels of government to measure preparedness, Colorado will
        continue to work closely with FEMA to assist in developing tools to assess and measure
        preparedness in order to maintain a coordinated effort that strengthens homeland security
        preparedness.

        Status: Awaiting FEMA Guidance


        Recommendation #8: Direct the State to implement and manage specific milestones for
        achieving progress toward desired Target Capability levels and State and sub-grantee investment
        goals.

        Response: See response to Recommendation #7


        Recommendation #9: Direct the State to strengthen monitoring controls over advanced
        drawdowns to mitigate the risk of violating the Cash Management Improvement Act.

        Response: GOHS concurs with this recommendation and has implemented more frequent and
        stringent quarterly financial monitoring which has allowed for a more consistent review of sub
        grantee cash handling practices to ensure compliance with the Cash Management Improvement
        Act.


                                                                                             Page 4 0/5




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 29

Appendix B
Management Comments to the Draft Report




        Status: Fully Implemented


        Recommendation #10: After Recommendation #9 has been implemented, direct the State to
        implement a method to identify sub-grantees faced with economic challenges and encourage
        them to exercise the option of requesting advanced drawdowl1s when necessary and appropriate.

        Response: GOHS concurs with this recommendation and in the months following the Slate of
        Colorado's exit interview with the DHS Office of Inspector General, GOHS has rewritten grant
        guidance to more clearly address the eligibility of cash advances for sub grantees. Also, in
        subsequent fiscal agent trainings, meetings, and regional board meeting GOHS staff have
        reinforced the State's rules on, and acceptance of. cash advance requests to benefit sub grantees
        faced with economic challenges. These changes have already resulted in a significant increase in
        the number of sub grantees requesting and receivi.flg advanced drawdowns.

        Status: Fully Implemented


        Thank you again for the opportunity to comment on this report. We appreciate the hard work
        and cooperative attitude that the audit team exhibited, and look forward to instituting positive
        changes in the program as a direct result of these recommendations. Please be advised that at
        this time we do not have concerns with publicly releasing the information contained in the report
        and look forward to working with you to finalize this audit.

        Respectfully,




        LARRY D. TR lLLO
        Director, Governor's Office of Homelan
        larry.d.truj illo@state.co.us




                                                                                            Page 5 0/5




           The State of Colorado’s Management of State Homeland Security Program and
       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 30

Appendix C
Homeland Security Grant Program Background

                      The Homeland Security Grant Program provides federal funding to
                      help state and local agencies enhance their capabilities to prevent,
                      protect against, respond to, and recover from terrorist attacks,
                      major disasters, and other emergencies. The Homeland Security
                      Grant Program encompasses several interrelated federal grant
                      programs that together fund a range of preparedness activities,
                      including planning, organization, equipment purchase, training,
                      and exercises, as well as management and administration costs.
                      Programs include the following:

                               State Homeland Security Program provides financial
                               assistance directly to each of the states and territories to
                               prevent, respond to, and recover from acts of terrorism and
                               other catastrophic events. The program supports the
                               implementation of the State Homeland Security Strategy to
                               address the identified planning, equipment, training, and
                               exercise needs.

                               Urban Areas Security Initiative provides financial
                               assistance to address the unique planning, equipment,
                               training, and exercise needs of high-risk urban areas, and to
                               assist in building an enhanced and sustainable capacity to
                               prevent, respond to, and recover from threats or acts of
                               terrorism and other disasters. Allowable costs for the urban
                               areas are consistent with the State Homeland Security
                               Program. Funding is expended based on the Urban Area
                               Homeland Security Strategies.

                      In addition, the Homeland Security Grant Program includes other
                      interrelated grant programs with similar purposes. Depending on
                      the fiscal year, these include the following:

                               Metropolitan Medical Response System
                               Citizen Corps Program
                               Law Enforcement Terrorism Prevention Program
                               (through FY 2007)




           The State of Colorado’s Management of State Homeland Security Program and

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 31

Appendix D
Colorado’s Nine All-Hazards Regions




                                                                Map provided by the State of Colorado




            The State of Colorado’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 32

Appendix E
Major Contributors to this Report

                       Michael Siviy, Director
                       Patrick Tobo, Audit Manager
                       Jacqueline Bear, Auditor-In-Charge
                       Katrina Bynes, Auditor
                       Gary Crownover, Program Analyst
                       Anne M. Mattingly, Program Analyst
                       James Diaz, Program Analyst
                       Shawn Cosman, Referencer




            The State of Colorado’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 33

Appendix F
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




            The State of Colorado’s Management of State Homeland Security Program and

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                              Page 34

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
